U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Perpall v. United States, No. 20-8322
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 15, 2021.
The government’s response is now due, after two extensions, on September 15, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8322
PERPALL, FABIAN
USA

TIMOTHY CONE
TIMOTHY CONE, ESQ.
1615 NEW HAMPSHIRE AVE., NW
4TH FLOOR
WASHINGTON, DC 20009
2022624047
TIMCONE@COMCAST.NET

